4
\

C@QCKLE

: E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923,
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-1019
JADE THOMPSON,
Petitioner,
Vv.
MARIETTA EDUCATION ASSOCIATION, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the BRIEF OF GOLDWATER
INSTITUTE AS AMICUS CURIAE SUPPORTING PETITIONER in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains

5553 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 16th day of February, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

 

My Comm. Exp. September 5, 2023

GENERAL NOTARY-State of Nebraska A Chby
' RENEE J. GOSS 9. .

Notary Public Affiant 40627
